                                 United States Department of Agriculture
                                          Office of Inspector General
                                           Washington, D.C. 20250




DATE:              May 18, 2012

AUDIT
NUMBER:            91099-0001-21 (1)

TO:                Pearlie S. Reed
                   Assistant Secretary for Administration

ATTN:              Phyllis Holmes
                   Agency Liaison Officer

FROM:              Gil H. Harden
                   Assistant Inspector General for Audit

SUBJECT:           Controls over the Grant Management Process of the Office of Advocacy and
                   Outreach − Section 2501 Program Grantee Selection for Fiscal Year 2012


On April 18, 2012, the Secretary of Agriculture requested that we perform an audit of the Office
of Advocacy and Outreach (OAO). The purpose of our audit was to evaluate the procedures
used by OAO to select the fiscal year (FY) 2012 recipients of grants funded through the
Outreach and Assistance for Socially Disadvantaged Farmers and Ranchers Program
(hereinafter referred to as the “Section 2501 Program”).1 On April 25, 2012, we conducted an
entrance conference with OAO officials and initiated our audit of the agency’s activities related
to the Section 2501 Program for FY 2012.

We are issuing this report to inform you that our preliminary results indicate that at least some of
the 57 applicants selected by OAO for FY 2012 grants through the Section 2501 Program may
not be the most meritorious and deserving applicants.2 We found that OAO officials had not
adhered to the agency’s draft policies and procedures, as well as the guidelines cited in the
Funding Opportunity Announcement (FOA), issued in November 2011, when selecting the

1
    The Section 2501 Program was authorized by the Food, Agriculture, Conservation, and Trade Act of 1990 to
    support entities, such as institutions of higher education and community-based organizations, that provide
    outreach, technical assistance, and education to socially disadvantaged farmers and ranchers. Under the Food,
    Conservation, and Energy Act of 2008, the Section 2501 Program was authorized $20 million for FY 2012.
2
    OAO received 193 applications in FY 2012 for Section 2501 Program grants, which are to be awarded using a
    competitive process.
Pearlie S. Reed                                                                                    2


FY 2012 applicants. They also did not comply with regulatory requirements that govern the
selection of competitive grants applicable to the Section 2501 Program.3 Further, they had not
documented deviations from the foregoing prescribed requirements. The selection of less
meritorious applicants could negatively impact assistance to socially disadvantaged farmers and
ranchers, and could expose the Department to unnecessary criticism and potentially even legal
action.

In summary, we are recommending that OAO not award grants to the 57 applicants at this time.
We maintain that an independent review panel should reevaluate the applications to ensure that
the most deserving applicants will be awarded grants. Due to the sensitivity of this issue and the
timing of the proposed awards, we are providing our preliminary results to you for immediate
corrective action. This issue, along with any others identified during our fieldwork, will be
consolidated into a final report at the conclusion of our audit.

OAO’s regulations state that it shall make Federal assistance awards to those responsible,
eligible applicants whose proposals are judged to be the most meritorious under the procedures
established in the request for proposal (in this case, the FOA). Those regulations also state that
the guiding principle for review and evaluation is to ensure that each proposal is treated in a
consistent and fair manner.

As stated above, our preliminary review of OAO’s operations identified procedural deficiencies
which indicated that agency officials had not complied with these regulations in selecting the
57 applicants to receive FY 2012 grants. To determine if the 57 selected applications were the
most meritorious, we compared the scores of the selected applications to the scores of all
applications that were scored by an independent review panel of experts. Our analyses identified
instances where OAO officials did not follow the regulations; moreover, they did not document
their decisions. The lack of documentation adversely impacts the transparency and
accountability associated with the selection of applicants to be awarded grants through the
Section 2501 Program. Thus, there was no assurance that applicants were selected in a fair and
equitable manner. The following are some examples identified by our analyses:

      ·   An independent review panel assigned a score equal to or greater than 904 to 44 of the
          193 applications submitted to OAO. However, an OAO official selected only eight of
          those applications to receive a grant. The OAO official was unable to explain or provide
          justification as to why the remaining 36 applications were not selected to receive a grant.

      ·   An independent review panel assigned a score of 60 or less to 23 of the 193 applications.
          Despite a low score of 60 or less, an OAO official selected three of the applications to

3
    7 Code of Federal Regulations (CFR) 2500, OAO Federal Financial Assistance Programs, General Award
    Administrative Procedures, dated October 26, 2011, and 7 CFR 3015.158, Uniform Federal Assistance
    Regulations.
4
    The independent review panel scored the applications on a 100-point scale.
Pearlie S. Reed                                                                                            3


           receive a grant. One application was selected even though it received a score of zero
           from the independent review panel and was incomplete, which made it ineligible for
           consideration. The OAO official informed us that he selected the application based on
           prior experience and knowledge of the entity, but had not documented the reasons for the
           selection. Another application received a score of 36 from the independent review panel,
           but was selected because it was located in a State participating in the StrikeForce
           Initiative.5

      ·    An OAO official did not submit the 45 applications for supplemental funding to an
           independent review panel, even though the FOA stated this action would occur.
           However, the official selected 27 of those applications to receive Section 2501 Program
           grants.

      ·    An OAO official selected three applications, even though the amount requested by the
           applicants exceeded the annual limitation stated in the FOA, which made them ineligible
           for consideration. As with all of the other examples, the official had no documentation to
           support or justify the decision to select the applications.

      ·    OAO officials approved a funding amount for 42 applications that differed from the
           amount requested by the applicant. The agency had no documentation to support or
           justify the decisions.
Although OAO had draft policies and procedures describing the process to be used in processing
and approving competitive award grants for the Section 2501 Program,6 the approving official
did not use them to select applications for FY 2012 grants. In fact, that official ignored the draft
policies, as well as Federal regulations, during the process. For example, the approving official
instructed another OAO official to exclude 45 of the 193 applications for supplemental funding
from the independent review panel process. The official stated this was appropriate since the
applicants were soliciting supplemental funds for projects previously awarded Section 2501
Program grants. According to the approving official, OAO staff had already verified that the
applicants were in “good standing.” However, the approving official’s actions did not adhere to
the FOA, which stated that an independent review panel would evaluate the merits of all requests
for supplemental funds.7

The OAO approving official stated that applicants were considered to be in “good standing” if
they had submitted mandatory quarterly progress and financial reports.8 Since only 27 of the

5
    The StrikeForce Initiative was established to improve outreach methods and provide assistance to persistent
    poverty communities and farmers. The pilot States included Arkansas, Georgia, and Mississippi.
6
    The draft policies and procedures had not been approved by the OAO Director.
7
    The OAO approving official did not consult with the Office of the General Counsel (OGC) regarding the
    appropriateness of the decision, even though OAO had asked OGC to validate the FOA.
8
    OAO officials did not evaluate or review the quality and timeliness of the reports.
Pearlie S. Reed                                                                                            4


45 applications for supplemental funding were selected, we asked for evidence that the
applicants were in “good standing.” The approving official stated that confirmation from OAO
staff was obtained verbally and was unable to provide evidence to support the decision to select
the applicants based on being in “good standing.” We then attempted to verify the “good
standing” rating of the 27 applicants by reviewing records retained by OAO, but were
unsuccessful because the records were not readily accessible upon our request for them.9

The approving official also disregarded conditions in the FOA, which stated that preliminary
funding was going to be designated by the rankings and recommendations of the independent
review panels. OAO did not request the independent review panels to rank and recommend
applications for selection of FY 2012 grants. Instead, the approving official only asked the
panels to evaluate applicants’ packages and compute a score. The scores were averaged and
placed on a list, which was provided to the approving official.

The approving official stated the scores were not used because members of the panel lacked
sufficient field experience to understand the needs of the communities the Department was trying
to reach. Thus, the official decided to rely on his experience and knowledge of the communities
to select applications. The approving official also stated that insufficient funds in the agency’s
budget did not allow for field staff with specific experience to be used on the independent review
panel.10

The approving official added that the selection process was influenced by several factors. These
included: Departmental initiatives, geographic locations, and demographic groups that the
Department was trying to reach. The official also solicited input from the Office of the Assistant
Secretary for Administration and the Office of Tribal Relations. However, OAO had not
established criteria to use when not selecting applications recommended by an independent
panel, and, since the approving official had not documented the actions, the official was unable
to provide details and support for the rationale used to select applicants. Generally, applications
should be funded according to panel recommendations; however, we recognize that other factors,
such as Departmental initiatives, may arise, and OAO might need to select applicants not
recommended by a panel. Our concern regarding any exception is not that a lower scoring
candidate is selected, but, rather, that the factors and reasons for selecting an applicant be
documented by agency officials.

The approving official selected applicants and allocated grant amounts without input and
approval from the OAO Director. The Director had recently joined OAO and stated that she was
unfamiliar with the agency’s processes. As such, she relied on the approving official to review

9
   Reports are maintained in the following locations: shared drives on the office computer system, file cabinets, and
   employees’ inboxes and desks. Even if we attempted to search these sources, we would be unable confirm the
   completeness and integrity of the records.
10
    The OAO official who selected the panel members (a different person than the approving official) stated that
   funding was not considered when selecting panel members. The selection was based on time constraints.
Pearlie S. Reed                                                                          5


and select applications for the 2012 grants, and to ensure that the Section 2501 Program was
administered in accordance with the agency’s draft policies and procedures. The Director stated
that her involvement in the program was limited to receiving updates provided by the approving
official.

Overall, we are concerned that some of the 193 applications submitted and considered by OAO
may be ineligible. We are also concerned that some of the 57 applications selected by OAO may
not be the most meritorious, and, if so, should not be awarded Section 2501 Program grants for
FY 2012. Thus, we maintain that the applications should be reevaluated by an independent
review panel to ensure that the most deserving applicants will be awarded grants.

We are also concerned that OAO did not have approved policies and procedures, and officials
within the agency knowingly disregarded draft internal policies, the FOA, and Federal
regulations. As such, while we recommend that the 2012 submissions be reevaluated, the OAO
staff may not be the appropriate individuals to perform that task. At a minimum, the
reevaluation and selection process should be supervised by staff from another agency, and then
documented by the OAO Director. We have not completed our evaluation of OAO’s draft
policies and procedures for administering the Section 2501 Program. Thus, we are not
recommending that the Director finalize them at this time. We will address that issue in our final
report. Also, since our work is ongoing, we have not addressed the issue of other appropriate
administrative actions. If warranted, we will recommend such action in the final report.

We discussed the details of our review and our conclusions with your staff on May 17, 2012.
They generally agreed with our conclusions and agreed to implement corrective actions. We
recommend that Departmental Management:

   1. Require an independent review panel of experts or qualified individuals, overseen by
      non-OAO officials, to determine the eligibility of the 193 applications submitted to OAO
      and to reevaluate those applications deemed to be eligible.

   2. Require the independent review panel to score the applications and recommend those that
      should be selected to receive FY 2012 grants, as well as the amount of the awards.

   3. Establish the criteria that will be used to fund exceptions to the recommendations made
      by the independent review panel.

   4. Require the OAO Director to document the selection process prior to public
      announcement of the awards.
Please provide a written response within 5 business days outlining your proposed corrective
action regarding these matters. If you have any questions please contact me at (202) 720-6945,
or Rod DeSmet, Deputy Assistant Inspector General for Audit, at (202) 720-1918.
         USDA’S



DEPARTMENTAL MANAGEMENT’S




 RESPONSE TO AUDIT REPORT
United States
Department of                                   May 25, 2012
Agriculture

Office of the
Assistant Secretary
for Administration
                      TO:               Gil H. Harden
1400 Independence                       Assistant Inspector General for Audit
Avenue SW

Washington, DC        FROM:             Pearlie Reed//original signed//
20250-0103
                                        Assistant Secretary for Administration
                                        Departmental Management

                      SUBJECT:          Controls over the Grant Management Process of the
                                        Office of Advocacy and Outreach – Section 2501
                                        Program Grantee Selection for Fiscal Year 2012 is
                                        Questionable


                      Departmental Management concurs with the facts, representations, and
                      conclusions of the subject Audit Fast Report and with the substance of all
                      regulatory and procedural citations found within the body of the finalized
                      Audit Fast Report. Departmental Management is fully committed to
                      objectives of this audit and resolves to provide full assistance and
                      cooperation with the Office of the Inspector General.

                      As noted in our earlier response to the draft Fast Report, dated May 18,
                      2012; the Director of the Office of Advocacy and Outreach was only
                      recently assigned. During her short tenure she has begun assessing the
                      technical skills of the current staff and identifying skills gaps. Recent
                      outgoing transfers and incoming staff details have begun to close the
                      detected skills gaps and create an experienced staff with which to
                      administer the 2501 program.

                      Departmental Management concurs with the OIG’s recommendations. We
                      have reviewed the attached OAO response and the Corrective Action Plan
                      and conclude the Action Plan as outlined will fully remediate the
                      recommendations as detailed in the Fast Report.

                      In accordance with Departmental Regulation 1720-1, Audit Follow-up and
                      Management Decision, the Compliance Officer, Phyllis Holmes; as the
                      Agency Audit Liaison Office for the staff offices of Departmental
                      Management (DM), should be included on all correspondence relating to
                      the resolution of this report, and all subsequent actions toward resolution of
                      this audit. The DM Compliance Office maintains the official audit files for
                      DM.




                                         AN EQUAL OPPORTUNITY EMPLOYER
                           United States Department of Agriculture
                              Office of Advocacy and Outreach



AUDIT
NUMBER:        91011-0001-21

TO:            Pearlie S. Reed
               Assistant Secretary for Administration

ATTN:          Phyllis Holmes//original signed//
               Agency Liaison Officer

FROM:          Carolyn C. Parker//original signed//
               Director
               Office of Advocacy and Outreach

SUBJECT:       Controls over the Grant Management Process of the Office of
               Advocacy and Outreach – Section 2501 Program Grantee Selection
               for Fiscal Year 2012


This is in response to the report dated May 18, 2012, regarding procedures used by the Office of
Advocacy and Outreach (OAO) to select the Fiscal Year (FY) 2012 recipients of grants funded
through the Outreach and Assistance for Socially Disadvantaged Farmers and Ranchers Program
(2501).

It is the goal of this office to ensure the most meritorious proposals are awarded and the goals
and objectives of the program are accomplished. Furthermore, in compliance with the
regulations it is the goal of the office to ensure that all proposals are treated in a consistent and
fair manner. Working with the Office of the Chief Financial Officer, OAO will develop and
document appropriate internal policies and procedures. I have reviewed the findings contained
in the report and a re-evaluation of the awards will be completed. The selection process will be
documented prior to public announcement of the awards. Attached the proposed corrective
actions with the corresponding time line.

Finally, as stated in the initial response to your office, OAO is a recently established Office and
is working across the board to implement policy and procedures, appropriate controls, and to
fully staff the office to ensure the goals and objectives of the law is implemented.

If additional information is needed, please contact Carolyn parker at (202) 720-6350.



             1400 Independence Avenue, S.W. Room 520A Washington, DC 20250-0700
                     “USDA is an equal opportunity provider, employer and lender.”
                               To file a complaint of discrimination, write
                                 USDA, Director, Office of Civil Rights
                    1400 Independence Avenue, S.W., Washington, DC 20250-9410
                                                                                                                                                 Attachment 1
                                                        Audit No. 91011-0001-21
                                            Controls over the Grant Management Process of
                                       The Office of Advocacy and Outreach-Section 2501 Program
                                          Grantee Selection for fiscal Year 2012 is Questionable

Rec.                             Recommendations                                             Proposed Corrective Action                     Completion
No.                                                                                                                                         Timeframe
 1     Require an independent review panel of experts or qualified individuals,     1. The Office of Advocacy and Outreach will engage      June 1, 2012
       overseen by non-OAO officials, to determine the eligibility of the 193          an independent review panel of qualified
       applicants submitted to OAO and to reevaluate those applications deemed         individuals.
       to be eligible.                                                              2. The review panel will determine eligibility of the
                                                                                       193 applications.
                                                                                    3. The process will be reviewed by a non-OAO            June 30, 2012
                                                                                       official.
 2     Require the independent review panel to score the applications and           1. The review panel will score applications.            June 30, 2012
       recommend those that should be selected to receive FY 2012 grants, as well   2. The review panel, in conjunction with the OAO
       as the amount of the awards.                                                    team, will make recommendations of the award
                                                                                       amounts.                                             June 30, 2012
 3     Establish the criteria that will be used to fund exceptions to the              The Office of Advocacy and Outreach will             June 8, 2012
       recommendations made by the independent review panel.                           develop criteria to fund exceptions.
 4     Require the OAO Director to document the selection process prior to public      The OAO Director will review the recommendation      July 15, 2012
       announcement of the awards.                                                     package, sign the selection documents; and ensure
                                                                                       that all decisions are fully documented.
